Report Number D-2010-068                     June 17, 2010




          Government Oversight of Field Service
          Representative and Instructor Services
                     in Support of the
     Mine Resistant Ambush Protected Vehicle Program
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
BAE                           BAE Systems Land & Armaments, LP
BAE-TVS                       BAE Systems Tactical Vehicle Systems, LP
CONUS                         Continental United States
COR                           Contracting Officer’s Representative
DCMA                          Defense Contract Management Agency
DFARS                         Defense Federal Acquisition Regulation Supplement
FAR                           Federal Acquisition Regulation
FLMNET                        Field-Level Maintainer New Equipment Training
FPII                          Force Protection Industries, Inc.
FSR                           Field Service Representative
GDLS-C                        General Dynamics Land Systems-Canada
JPO                           Joint Program Office
MCSC                          Marine Corps Systems Command
MRAP                          Mine Resistant Ambush Protected
NaviStar                      NaviStar Defense, LLC
NET                           New Equipment Training
OCONUS                        Outside the Continental United States
OEM                           Original Equipment Manufacturer
OPNET                         Operator New Equipment Training
PGI                           Procedures, Guidance, and Information
QASP                          Quality Assurance Surveillance Plan
RSA                           Regional Support Activity
                                  INSPECTOR GENERAL 

                                  DEPARTMENT OF DEFENSE 

                                   400 ARMY NAVY DRIVE 

                            AR LI NGTON, V IRG INIA 22202- 4704 





                                                                             June 17,20 I 0

MEMORANDUM FOR NAVAL INSPECTOR GENERAL
              AUDITOR GENERAL, DEPARTMENT OF THE ARMY
              COMMANDER, MARINE CORPS SYSTEMS COMMAND


SUBJECT: Govcrnment Oversight of Field Service Representative and Instructor
         Services in SUppOlt of the Mine Resistant Ambush Protected Vehicle
         Program (Report No. D-20 I 0-068)

We are providing this report for your information and use. We conducted this audit
pursuant to Public Law 110-181, "The National Defense Authorization Act for Fiscal
Year 2008," section 842, "Investigation of Waste, Fraud, and Abuse in Waltime
Contracts and Contracting Processes in Iraq and Afghanistan," January 28, 2008. We
considered management comments on a draft of this report when preparing the final
report.

The comments from the Commander, Marine Corps Systems Command, conformed to
the requirements of DoD Directive 7650.3 and left no unresolved issues. Therefore, we
do not require additional comments.

We appreciate the courtesies extended to the staff. Please direct qucstions to me at
(703) 604-9201 (DSN 664-9201).




                                             Richard B. Jolliffe
                                             Assistant Inspector General
                                             Acquisition and Contract Management
Report No. D-2010-068 (Project No. D2009-D000CK-0100.000)                       June 17, 2010


               Results in Brief: Government Oversight of
               Field Service Representative and Instructor
               Services in Support of the Mine Resistant
               Ambush Protected Vehicle Program

What We Did                                               What We Recommend
The overall objective was to determine whether            We recommend that the Assistant Commander
Mine Resistant Ambush Protected (MRAP)                    for Contracts, Marine Corps Systems
vehicle program and contracting officials were            Command, require contracting officials to
adequately supporting MRAP vehicle                        develop and implement a systematic,
maintenance requirements and appropriately                Government-controlled quality assurance
awarding and administering maintenance                    program for services procured from the five
contracts. This is the first in a series of reports       MRAP contracts to ensure adequate
addressing the maintenance support contracts              Government oversight of FSRs and New
for the MRAP vehicles. For this report, we                Equipment Training Instructors.
limited our scope to the oversight of Field
Service Representative (FSR) and New                      We recommend that the Program Manager, JPO
Equipment Training Instructor services procured           MRAP, Marine Corps Systems Command,
from the five MRAP original equipment                     develop and provide a Quality Assurance
manufacturers.                                            Surveillance Plan to the contracting officer,
                                                          specifically for ongoing and planned contract
What We Found                                             actions for services supporting MRAP vehicles
Marine Corps Systems Command contracting                  to ensure the quality and cost-effectiveness of
officials did not provide adequate Government             services.
oversight of FSRs and New Equipment Training
Instructors as required by Government                     Management Comments and
regulations. This occurred because contracting            Our Response
officials used the MRAP vehicle production                The Commander, Marine Corps Systems
contracts, which did not contain the necessary            Command, agreed with both recommendations.
controls for providing Government oversight               The comments were responsive to the intent of
when acquiring these services. As a result, Joint         the recommendations. Please see the
Program Office (JPO) MRAP officials ordered               recommendations table on the back of this page.
$815.4 million in FSR and New Equipment
Training Instructor services without a written
quality assurance process to ensure that the
services provided were performed in accordance
with contract requirements. Instead, the JPO
MRAP officials relied on the contractors to
monitor themselves.




                                                      i
Report No. D-2010-068 (Project No. D2009-D000CK-0100.000)               June 17, 2010

Recommendations Table
        Management                  Recommendations         No Additional Comments
                                   Requiring Comment              Required
Commander of the Marine Corps                               1. and 2.
Systems Command




                                          ii
Table of Contents

Results in Brief                                                        i


Introduction                                                            1


       Objective                                                        1

       Background                                                       1

       Review of Internal Controls                                      3


Finding. Government Oversight of Field Service Representatives and 

Instructors                                                             4


       Management Comments on the Finding and our Response              9

       Recommendations, Management Comments, and Our Response          11 


Appendix

       Scope and Methodology                                           13 

              Prior Coverage                                           14 


Management Comments

       Department of the Navy                                          15 

       United States Marine Corps Systems Command                      16


Introduction
Objective
The overall objective was to determine whether the Mine Resistant Ambush Protected
(MRAP) vehicle program and contracting officials were adequately supporting the
MRAP vehicle maintenance requirements and appropriately awarding and administering
maintenance contracts.

We performed this audit pursuant to Public Law 110-181, “The National Defense
Authorization Act for Fiscal Year 2008,” section 842, “Investigation of Waste, Fraud,
and Abuse in Wartime Contracts and Contracting Processes in Iraq and Afghanistan,”
January 28, 2008. Section 842 requires “thorough audits . . . to identify potential waste,
fraud, and abuse in the performance of (1) Department of Defense contracts,
subcontracts, and task and delivery orders for the logistical support of coalition forces in
Iraq and Afghanistan; and (2) Federal agency contracts, subcontracts, and task and
delivery orders for the performance of security and reconstruction functions in Iraq and
Afghanistan.” We reviewed the contracts from five MRAP manufacturers that ordered
Field Service Representative (FSR) and New Equipment Training (NET) Instructor
services to support the MRAP vehicles located in Iraq and Afghanistan. We visited
Southwest Asia to meet with FSR and NET Instructors to discuss their role in supporting
MRAP vehicles.

This is the first in a series of reports addressing maintenance support for MRAP vehicles.
For this report, we limited our scope to the oversight of FSR and NET Instructor services
procured from the five MRAP manufacturers. See Appendix A for a discussion of the
audit scope and methodology.

Background
The MRAP vehicles are multi-mission platforms capable of mitigating the effects of
improvised explosive devices, mines, and small arms fire (see the figure for examples of
MRAP vehicles). In November 2006, the Joint Program Office (JPO) for MRAP
vehicles (JPO MRAP) was established to manage the acquisition of the MRAP vehicles
to meet the needs of all of the Services. Marine Corps Systems Command (MCSC)
manages the JPO MRAP and MRAP vehicle procurement for all of the Services.

On May 2, 2007, the Secretary of Defense designated the MRAP vehicle program as the
highest priority DOD acquisition program and stated that all options to accelerate the
production and fielding of the MRAP capability to the theater should be identified,
assessed, and applied where feasible. As of November 6, 2009, the MCSC contracting
office ordered 16,174 MRAP vehicles from five contractors: General Dynamics Land
Systems-Canada (GDLS-C); BAE Systems Tactical Vehicle Systems, LP (BAE-TVS);
BAE Systems Land and Armaments, LP (BAE); Force Protection Industries, Inc. (FPII);
and NaviStar Defense, LLC (NaviStar).

                                             1

                             Figure. Variants of MRAP Vehicles




       Source: DefenseImagery.mil and MARCORSYSCOM.usmc.mil




Field Service Representatives
To help with the maintenance of the MRAP vehicles, the MCSC contracting officials
procured FSR services from the five MRAP contractors. FSRs are located in the
Continental United States (CONUS) and Outside the Continental United States
(OCONUS), and they provide full-time, on-site liaison or advisory services between their
company and the users of the MRAP vehicles. Specifically, the contract required the
FSRs to:

      provide corrective maintenance guidance as needed,
      provide maintenance and supply support reports as needed,
      coordinate and resolve problems related to maintenance, and
      assist with any maintenance support activity at the unit level that was deemed
       supportable by the contractor and buying activity.

The FSRs were deployed throughout Kuwait, Iraq, and Afghanistan and may be required
to move from one site to another to support MRAP vehicles. The FSRs were embedded
with units as well as the MRAP vehicle Regional Support Activities (RSAs). RSAs are
located throughout Iraq and Afghanistan and support all units in their area of
responsibility. RSAs provide depot-level repair, Government-furnished equipment
installation, component replacement and repair, and battle damage assessment repair for
MRAP vehicles.


                                            2

New Equipment Training Instructors
MCSC contracting officials procured New Equipment Training Instructor (Instructors)
services from the five MRAP contractors because requirement for the MRAP vehicles
was new and unfamiliar. Specifically, the Instructors were ordered to:

    		 provide MRAP vehicle Operator New Equipment Training (OPNET) and Field-
        Level Maintainer New Equipment Training (FLMNET) to Service members in
        CONUS and OCONUS, and
    		 cross-train other original equipment manufacturer (OEM) FSRs, Instructors,
        mechanics, and Government support personnel at the MRAP University in
        CONUS on their MRAP vehicle variant.

The Instructors were deployed throughout Iraq and Afghanistan and provided training at
the various RSAs.

The table shows the breakdown of FSR and Instructor services ordered by contractors as
of November 20, 2009.

                   Table. FSR and NET Instructor Services Procured
                                                       NET Instructor
                              FSR Services                Services                 Obligated
       Contractor            (manmonths*)               (manmonths)                 Amount
    GDLS-C                       1,453                       437                 $65,123,662
    BAE-TVS                      1,812                     1,154                   99,466,859
    BAE                          1,503                     1,968                  132,139,047
    FPII                         5,810                     2,181                 200,315,445
    NaviStar                     5,691                     2,304                 318,394,078
     Total                      16,269                     8,044                 $815,439,091
    *A manmonth is a unit of measure that represents one FSR or Instructor under contract performing
    services for one month.

Review of Internal Controls
DOD Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,”
January 4, 2006, requires DOD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We determined that an internal
control weakness in the administration of MRAP contracts existed as defined by DOD
Instruction 5010.40. Specifically, MCSC contracting officials did not provide adequate
oversight of FSR and Instructor services procured to support the JPO MRAP operations
in theater. We discuss these issues in detail in the Finding section. Implementing
Recommendations 1 and 2 should correct this weakness. We will provide a copy of the
final report to the senior official(s) responsible for internal controls in the Department of
the Navy.

                                                  3

Finding. Government Oversight of Field
Service Representatives and Instructors
MCSC contracting officials did not provide adequate Government oversight of FSRs and
Instructors as required by the Federal Acquisition Regulation (FAR) and DOD
regulations. This occurred because the contracting officer used the MRAP vehicle
production contracts, which did not contain the necessary controls for providing
Government oversight such as quality assurance surveillance plans (QASPs) or the
designation of contracting officer’s representatives (CORs) when acquiring these
services. The contracting officials also relied on MRAP program officials to provide the
oversight of the FSRs and Instructors without a written designation. As a result, JPO
MRAP officials procured $815.4 million in FSR and Instructor services without a written
quality assurance process to ensure that the services provided were performed in
accordance with contract requirements. Instead, the JPO MRAP officials relied on the
contractors themselves or complaints from individual units to monitor the FSRs.

MRAP Vehicle Production Contracts
The purpose of the five MRAP vehicle production contracts was to urgently procure
vehicles capable of protecting forces operating in hazardous areas against threats, such as
mines, improvised explosive devices, and small arms fire. JPO MRAP officials decided
to use an interim Contractor Logistics Support approach for initial support of the MRAP
vehicle. Contractor Logistics Support includes contractor-provided FSR and Instructor
services. The MRAP production contracts incorporated the procurement of FSR services
from the five OEMs as on-site liaisons, advisory service providers, and management
support for the JPO MRAP. In addition, the contracts required the OEMs to provide
OPNET and FLMNET instruction and cross-training FSRs on the vehicles that they
manufactured.

Quality Assurance Surveillance Plan
The JPO MRAP officials did not develop QASPs to monitor the FSRs or the Instructors
for services procured under the five OEM contracts. FAR Subpart 46.4, “Government
Contract Quality Assurance,” states that quality assurance must be performed as
necessary to ensure that the supplies or services conform to contract requirements. A
QASP is a Government-developed document used to ensure that systematic quality
assurance methods are used in the administration of a contract. A QASP should be
prepared by the program office in conjunction with the Statement of Work and should
specify all work requiring surveillance along with the method of surveillance.
Furthermore, FAR 46.103, “Contracting Office Responsibilities,” states that the
contracting office is responsible for receiving specifications from the activity responsible
for the technical requirements for inspecting, testing, and performing other contract
quality requirements (for example, a QASP for service contracts) to ensure the integrity
of supplies or services. Defense Federal Acquisition Regulation Supplement (DFARS)
246.102, “Policy,” requires the development and management of a systematic, cost-
effective Government quality assurance program to ensure that contractor performance is

                                             4

in accordance with service contract requirements. A contracting official stated that the
development of a QASP was not a requirement for the MRAP contracts because the
contracts were awarded to procure MRAP vehicles. Although the original intent of the
five MRAP vehicle contracts was to procure a vehicle capability, the contracts were also
used to procure services. Therefore, the JPO MRAP and MCSC contracting officials
should have developed and implemented a QASP to ensure effective quality assurance
and contract oversight for services procured, especially because these services exceeded
$800 million.

In addition, the statement of work for the MRAP vehicle contracts states that the
contractor is required to develop and use a quality assurance operation that includes a
quality assurance plan, periodic quality assurance reviews, and procedures for
maintaining quality assurance records. The statement of work requires the contractor to
establish, implement, document, and maintain their quality system. When we requested
the quality assurance documents required in the statement of work, the contracting
officials provided FSR Weekly Status reports as the tools they used for monitoring FSRs.
The FSR Weekly Status reports documented the status of specific work that the FSRs
stated they performed; however, these documents did not contain any Government
inspection or evaluation procedures or indicate the quality of the work performed.

Contracting Officer’s Representatives
The contracting officer did not designate a COR to provide oversight of FSRs or
Instructors located in theater. A COR supports contracting activities as the Government’s
eyes and ears at the site the contractor performs tasks. According to DFARS Procedures,
Guidance, and Information (PGI) Part 201.602-2, “Responsibilities,” CORs are required
to assist in the technical monitoring or administration of contract actions for services.
The COR must be a Government employee, trained and experienced, and designated in
writing. In addition, the contracting officer has the authority to designate personnel to
assist with the monitoring of contractor performance, including the delegation of contract
administration responsibilities to the Defense Contract Management Agency (DCMA)
and the designation of a COR. According to DFARS Part 201.602-2, a COR may not be
delegated responsibility to perform tasks at a contractor’s location if that task has been
delegated to a contract administration office. The contracting officer designated DCMA
to administer the five MRAP contracts; however, the DCMA offices administering the
contracts only provided oversight of vehicle production, not of FSRs or Instructors. JPO
MRAP officials stated that DCMA oversight of FSRs was impractical due to FSRs
deployment throughout the theater and in extreme locations. Therefore, the contracting
officer should have designated a COR to help provide Government oversight. The reason
the contracting officer did not designate a COR could not be determined due to a change
in the contracting officers for the OEM contracts. However, the designation of a COR is
an important internal control that is needed to ensure that work is performed in
accordance with the contract requirements and that the contractor is complying with its
system of quality control. The contracting officer for the OEM contracts should have
addressed this issue at the time the services were ordered.



                                            5

Oversight of Field Service Representatives
The contracting officer relied on MRAP program officials to provide the oversight of the
FSRs and Instructors without a written designation, while program officials relied on
contractors to oversee their personnel. When we asked the contracting officer for the
names of the individuals who provide surveillance, oversight, and contract administration
responsibilities for FSRs, she responded that the JPO MRAP administers the FSRs;
therefore, the function is a requirement of the program office, and not of the contracting
office. Contract administration is an inherent function of the contracting office; thus, the
contracting office is responsible for developing efficient procedures for performing
Government contract quality assurance actions and receiving specifications for
prescribing contract quality requirements from the program office, as required by the
FAR. Although the contracting officer could designate the JPO MRAP in writing to
provide oversight of FSRs, contract administration is not a responsibility of the program
office. In addition, the original intent of the five MRAP contracts was for MRAP vehicle
procurement, but the contracts were also used to procure FSR and Instructor services.
Therefore, contracting and program officials should have included Government quality
assurance procedures to monitor and oversee FSR and Instructor performance in the
contracts to ensure the quality and cost-effectiveness of services provided by the
contractors.

Program Office Oversight of Field Service Representatives
MRAP program officials did not have standard quality assurance procedures in place to
identify and mitigate poor FSR performance. The program officials relied on complaints
from individuals in the unit as a mechanism for Government oversight of FSRs in theater
or contractor supervisors to provide oversight of the FSRs. According to program
officials, poor-performing FSRs were brought to Government officials’ attention only if
individuals in the units submitted complaints about specific FSRs through their chain of
command. However, neither the contracting officer nor MRAP program officials
established any mechanism in the contract or as part of a QASP for reporting complaints.
Relying on complaints provided no assurance that DoD was attaining the best value. The
Site Leads from Balad and Camp Liberty RSAs stated that overseeing FSR performance
was not their responsibility. Nevertheless, the Site Leads stated that they received and
reviewed weekly Personnel Status Reports provided by FSR supervisors; Personnel
Status Reports provided the Site Leads with the capability to account for the number of
FSRs assigned to their RSAs or associated forward operating bases. In addition, the
Standard Operating Procedures at JPO MRAP Forward and two RSAs did not contain
any procedures for overseeing FSRs. Essentially, JPO MRAP relied on the contractors to
monitor themselves for more than $800 million in services.

Contractor Oversight of Field Service Representatives
The MRAP vehicle program officials relied on contractor supervisors to provide
oversight of the FSRs in theater. When we asked about standard quality assurance
procedures for monitoring FSRs, contractor supervisors stated that there was no quality
assurance process in place and no Government oversight of the FSRs. The FSRs in
theater reported directly to their respective contractor supervisors. Contractor supervisors
used FSR Weekly Status Reports and complaints from individuals in the units as the tools

                                             6

to monitor FSR performance. The FSRs completed Weekly Status Reports to serve as
evidence of their performance and submitted these reports to their chain of command.
The Weekly Status Reports included maintenance problems for each vehicle, the status of
the vehicles, and the number of vehicles worked on. The Weekly Status Reports did not
assess the quality of FSR performance. One of the contractors provided the units with
surveys to assess FSR performance.* The surveys were sent to the Lead FSR, who then
reported the findings to their chain of command. Although surveys may be useful to
assess quality of work, we cannot assess the cost-effectiveness of the services provided or
whether DoD is attaining the best value without independent surveillance by the
Government.

Oversight of Instructors
Although the MRAP vehicle program officials did not have standard quality assurance
procedures in place to provide oversight of Instructors, there were some procedures used
for monitoring Instructors’ performance in theater. Instructors provided OPNET and
FLMNET training in accordance with a Program of Instruction that each contractor
developed and that the U.S. Army Training and Doctrine Command approved. A NET
Coordinator, who was not a Government employee, monitored the Instructors at each of
the RSAs in Iraq to ensure that they were following a Program of Instruction. The NET
Coordinators are employees from an independent contractor, Science Applications
International Corporation, that provides Joint Logistics Integrator support for JPO
MRAP.

In addition, the students that received NET training provided feedback on Instructors’
performance by completing an end-of-course survey. According to the Training
Coordinator for Operation Iraqi Freedom, issues that students identified in end-of-course
surveys would be brought to her attention by training supervisors. She further stated that
RSA Site Leads participated in weekly meetings, known as After Action Reviews.
During these meetings, the Instructors, the site training specialist, the site lead, and the
deputy site lead discussed prior training surveys and future training schedules. However,
during our visits to Balad and Camp Liberty RSAs, the RSA Site Lead from Camp
Liberty was the only one who participated in weekly After Action Reviews.


MRAP Program Oversight
According to the MRAP Deputy Program Manager, the FSRs were actively managed by
theater leads, country leads, site leads, DCMA, and quality assurance/control teams.
However, our audit fieldwork indicated that DCMA was not overseeing the FSRs and
Instructors. In addition, the theater lead was the only Government employee who
oversaw the MRAP vehicle program in Kuwait, Iraq, and Afghanistan. Furthermore, the
country leads were contractor personnel, and site leads did not have the responsibility to


*
  We did not interview FSRs for one contractor, GDLS-C, because none of the GDLS-C’s FSRs were
located in Iraq during our visit.


                                                 7

oversee FSRs. During our audit fieldwork, we were not made aware of any other
individuals with oversight responsibility of FSRs and Instructors. Subsequent to our
audit fieldwork, an MRAP program official informed the audit team that there have been
some changes to the JPO MRAP Forward organization that include filling some key
management positions with Government personnel.

The MRAP Deputy Program Manager also stated that the MRAP vehicle readiness rate
of 94 percent was an indication that the FSRs and Instructors were providing quality
services. The readiness rate may be 94 percent, but it was the contribution of all
organizations and individuals working together toward supporting the warfighter. The
high readiness rate does not substitute for having a COR or a QASP oversee FSRs and
Instructors.

Conclusion
We recognize the difficulties in overseeing and monitoring the performance of contractor
personnel in theater. However, given the importance of the MRAP vehicles and the role
of the FSRs and Instructors in maintaining the vehicles and training the soldiers as well
as stewardship of taxpayers’ money, quality assurance measures should have been in
place. Therefore, the JPO MRAP and MCSC contracting officials should have developed
and implemented a QASP to ensure effective quality assurance and contract oversight for
services procured, as required by the FAR. In addition, MCSC contracting officials
should have designated a COR to each MRAP contract to assist in the monitoring and
administration of contractor performance to ensure that FSRs and Instructors complied
with contract requirements. These quality assurance measures would have ensured that
the $815.4 million ordered for FSR and Instructor services resulted in quality and cost-
effective services.




                                           8

Management Comments on the Finding and Our
Response
The Assistant Secretary of the Navy for Research, Development, and Acquisition
(ASN[RDA]) and the Commander, MCSC, provided the following comments on the
finding.

Comments on the Overall Finding
ASN(RDA) responded to the draft report and agreed with the comments from the
Commander, MCSC. The ASN(RDA) stated that the commander had already improved
the oversight of the FSRs through a contractually formalized QASP. The commander
disagreed with several points in the finding. Specifically, the ASN(RDA) and the
commander disagreed that FSR and Instructor services procured for the JPO MRAP were
not sufficiently managed by Government personnel. The commander stated that the
report suggests that the funds spent on FSRs were not spent wisely and that the JPO
MRAP officials did not manage the FSRs. The ASN(RDA) agreed with the commander
that the JPO MRAP officials had a robust system of “checks and balances” to manage
and control the FSRs. He stated that, as evidence of their success in managing the FSRs,
the MRAP program had a Mission Capability Rate of 94 percent or higher, exceeding the
required rates. The ASN(RDA) agreed with the commander that the JPO MRAP
successfully and actively managed and monitored FSR performance without adhering to
the FAR. The commander stated that assigning a COR and completing QASPs would not
necessarily produce a more positive result or greater management of the more than
$800 million of funds spent on FSR and Instructor services, and that it would be
misleading to suggest it would.

Our Response
We did not suggest that the funds spent on FSR and Instructor services were not spent
wisely or that FSRs were not managed. Our audit focused on whether the FAR was
properly followed for Government oversight of FSR and Instructor services of the MRAP
program. We did not suggest whether the overall MRAP program operations were
effective. We stated that because DOD spent more than $800 million for these services,
the services should be sufficiently and properly managed by Government personnel, as
required by the FAR. Furthermore, we did not validate the Mission Capability Rate
readiness rate of 94 percent during the audit; however, the Mission Capability Rate
results from a combination of all the organizations and individuals responsible for
maintaining the MRAP, not just FSRs or Instructors. It is important to note that users
could be happy with performance, and a high readiness could be achieved, but more than
appropriate amounts of resources might be expended to receive these services.
Government quality assurance is important to ensure stewardship of taxpayer’s dollars. A
high readiness rate does not preclude JPO MRAP officials from the FAR requirements
for developing and implementing a systematic, Government-controlled quality assurance
program based on a QASP or for designating a COR to oversee FSR and Instructor
services.

                                           9

Comments on the Oversight of Field Service Representatives
The ASN(RDA) and the Commander, MCSC, stated that Government personnel were
present in theater and country, and at site activities to fulfill governmental oversight of
FSR services. Specifically, the commander stated that the logistics team has active
management of the oversight using an integrated and engaged chain of command. The
commander stated that DCMA, quality assurance/quality control personnel, and others
oversee and actively manage FSRs, the logistics teams, and the logistics process. He also
stated that the JPO MRAP officials fulfilled the intent for a COR by involving numerous
people, including the customer, to oversee and report on all of JPO MRAP activities.

Our Response
We disagree with the Commander, MCSC, comments that the JPO MRAP actively
managed the FSRs through the use of theater leads, country leads, site leads, DCMA,
quality assurance teams, the logistics team, the logistics process, and others who oversee
and actively manage the FSRs. During our audit fieldwork, including our site visit to
Southwest Asia, we identified a lack of Government oversight. There was only one
program manager for the JPO MRAP Forward (who was located in Kuwait). He was also
the theater lead and had oversight responsibility for all Government personnel in the
MRAP vehicle program in Kuwait, Iraq, and Afghanistan. As discussed in the report, the
site leads from Balad and Camp Liberty RSAs stated that overseeing FSR performance
was not their responsibility. In addition, the standard operating procedures at JPO MRAP
Forward and two RSAs did not contain any procedures for overseeing FSRs. Also,
DCMA was not involved in overseeing and managing FSRs and/or Instructors; DCMA
was designated only to perform contract administration for the vehicle production effort,
not for the FSR and Instructor services.

Comments on the Key Metrics
The Commander, MCSC, stated that although a specific COR was not designated in the
contracts, each group of FSRs and Instructors were managed by the RSA Commander
and service representative. He stated that the DOD IG received an explanation of the two
key metrics used to identify positive performance: Vehicle Mission Readiness
percentages and customer complaints. In addition, the commander stated that the JPO
MRAP officials conduct weekly Secret-level video teleconferences with II Marine
Expeditionary Force Forward and receive a daily briefing on readiness, which includes a
detailed MRAP operational status. Additionally, the commander stated that JPO MRAP
Forward officials meet with Army field support brigades that have embedded brigade
logistics support teams co-located with FSRs. The commander stated that the
information from the brigade logistics support teams includes material readiness and
support and performance of deployed equipment. He also stated that this information is
briefed to the Commanding General, Army Materiel Command, and JPO MRAP
officials.

Our Response
While we were made aware of Vehicle Mission Readiness percentages and customer
complaints, we did not receive an explanation of these key metrics. We were provided a

                                            10 

briefing slide showing the readiness rate of 94 percent, and other documents showing
operational readiness for fully mission capable and non-mission capable vehicles. In
addition, the readiness rate was communicated orally to us in multiple meetings by JPO
MRAP logistics personnel. As discussed in the report, poor-performing FSRs were
brought to Government officials’ attention only if individuals in the units submitted
complaints about specific FSRs through their chain of command. However, neither the
contracting officer nor MRAP program officials established any mechanism in the
contract or as part of a QASP for reporting complaints. We were never made aware of or
shown any specific complaints regarding the FSRs. Although a 94-percent readiness rate
is commendable, it does not provide feedback on the FSR individual performance or
whether an individual FSR is performing his duties in accordance with the contract. One
key point missed by the commander’s argument is the amount of resources needed to
fulfill requirements cost effectively. For instance, if the services of three FSRs were
procured but only one was needed, there may be no complaints and very high readiness
levels. However, the government would have paid for two FSRs that were not needed;
therefore, detailed government surveillance is necessary to make these determinations
and provide appropriate stewardship of taxpayer’s dollars.


Recommendations, Management Comments, and Our
Response
We recommend that the Commander, Marine Corps Systems Command, direct the:

1. Assistant Commander for Contracts, Marine Corps Systems Command, to
require contracting officials to develop and implement a systematic, Government-
controlled quality assurance program based on a quality assurance surveillance
plan provided by the Joint Program Office for services procured from the five Mine
Resistant Ambush Protected contracts to ensure adequate Government oversight of
Field Service Representatives and Instructors.


Commander, Marine Corps Systems Command Comments
The Commander, MCSC, agreed, stating that the Assistant Commander for Contracts
already directed the JPO MRAP lead contracting officer to work with the JPO MRAP
program manager to develop a systematic, Government-controlled quality assurance
program for each of the five MRAP indefinite-delivery, indefinite-quantity contracts to
strengthen Government surveillance of FSRs and Instructor support services procured.
He further stated that six of seven OCONUS locations have identified and appointed
contracting officer’s representatives, while 7 of the 31 CONUS locations have identified
and appointed CORs. In addition, he provided milestones by which CORs would receive
their training; consequently, their COR designation would be complete.


Our Response
The comments were responsive, and no further comments are required.

                                           11 

2. Program Manager, Joint Program Office, Mine Resistant Ambush Protected
Vehicle Program, Marine Corps Systems Command, to develop and provide a
quality assurance surveillance plan to the contracting officer, specifically for
ongoing and planned contract actions for services supporting Mine Resistant
Ambush Protected vehicles to ensure the quality and cost-effectiveness of services,
as required by the Federal Acquisition Regulation.


Commander, Marine Corps Systems Command Comments
The Commander, MCSC, agreed, stating that the MCSC, JPO MRAP program manager
was coordinating a QASP for the JPO MRAP program manager’s signature and would
forward it to the contracting officer’s representative team once signed. He further stated
that the JPO MRAP program manager will sign the finalized QASP and provide it to the
Acquisition Contracting Office by the end of March 2010 to be incorporated into the five
MRAP contracts. In addition, the commander stated that the JPO MRAP Contracting
Office is drafting a contract administration plan that will state specifically how the
procuring contracting officer will independently review contractor performance and how
the contracting officer’s representative team will work together.


Our Response
The comments were responsive, and no further comments are required.




                                            12 

Appendix. Scope and Methodology
We conducted this performance audit from December 2008 through January 2010 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective.

We collected, reviewed, and analyzed documents that were dated from November 2006
through November 2009. We reviewed the MRAP Acquisition Plan, statement of work,
Joint Supportability Plan, Joint Maintenance Plan, standard operating procedures for the
RSAs in Balad and Liberty, and Plans of Instruction for OPNET and FLMNET.
Additionally, we reviewed the base contracts, contract modifications, delivery orders, and
delivery order modifications for MRAP FSRs, and maintenance-related functions for the
following five original equipment manufacturer contracts:

      Force Protection Industries, Inc.;
      NaviStar Defense, LLC;
      BAE Systems Tactical Vehicle Systems, LP;
      BAE Systems Land and Armaments, LP; and
      General Dynamics Land Systems-Canada.

We reviewed applicable contracting regulations including the FAR and the DFARS. We
interviewed contracting and program office personnel from the Joint Program Offices at
Marine Corps Systems Command and TACOM Life Cycle Management Command. We
also went to Kuwait and Iraq. In Kuwait, we visited the MRAP Sustainment Facility and
MRAP Operational Supply Stock building. In Iraq, we visited the MRAP Headquarters
Forward in Balad, the Balad RSA, and the Camp Liberty RSA. While in Kuwait and
Iraq, we interviewed JPO MRAP Forward personnel, OEM FSRs, Red River Army
Depot mechanics, and Quality Control and Quality Assurance personnel.

The audit team limited the scope of this audit to include only OEM FSRs and Instructors.
FSR and Instructor services are ordered under separate contract line item numbers.
During the team’s initial review of the MRAP contracts, FSR and Instructor services
were ordered using the same contract line item numbers; therefore, we included
Instructors in our audit scope. We did not visit Afghanistan as part of this audit.


Use of Computer-Processed Data
We relied on computer-processed data from the Electronic Document Access Web site.
Electronic Document Access is a web-based system that provides online access of
acquisition-related documents. We used these documents to determine the number of
FSRs ordered from each of the five OEMs. We compared our analysis of the contracts

                                           13 

with data provided by the contracting office to verify the number of FSRs ordered. From
these procedures, we are confident that the Electronic Document Access Web site was
sufficiently reliable for the purpose of acquiring contract documents for our analysis of
FSRs.

Prior Coverage
During the last 5 years, the Government Accountability Office (GAO), the DOD
Inspector General (DOD IG), and the U.S. Army Audit Agency (AAA) have issued four
reports discussing the MRAP vehicles. Unrestricted GAO reports can be assessed over
the Internet at http://www.gao.gov. Unrestricted DOD IG reports can be accessed at
http://www.dodig.mil/audit/reports. Unrestricted Army reports can be accessed from .mil
and gao.gov domains over the Internet at https://www.aaa.army.mil/ .

GAO
GAO Report No. GAO-08-884R, “Rapid Acquisition of Mine Resistant Ambush
Protected Vehicles,” July 15, 2008

DOD IG
DOD IG Report No. D-2009-046, “Procurement and Delivery of Joint Service Armor
Protected Vehicles,” January 29, 2009

DOD IG Report No. D-2007-107, “Procurement Policy for Armored Vehicles,” June 27,
2007

AAA
AAA Report No. A-2009-0221-ALA, “Effect of the Mine Resistant Ambush Protected
Vehicle Upon Tactical Vehicle System Requirements,” September 21, 2009




                                           14 

Department of the Navy Comments






                                      nl
                                      THEE ASS IS
                                                STANT SECRETARY OF THE NAVY
                                                  TANTSECRETARYOFTHE
                                          (RESEARCH. DEVELOPMENT
                                          (RESEARCH, DEVELOP  MENT ANDACQUl$lTlON)
                                                                     AND ACQU1S/TlON)
                                                          N AVY PE
                                                     1000 NAVY     NTAGON
                                                                PENTAGON
                                                   WA         0(; ~0300-
                                                     SHINGTON DC
                                                   WASHINGTON     ?03tlO- l' 000
                                                         MAR 2
                                                             299 1010
                                                                 7010

      MEMORANDUM POR DEPARTMENT OF
                                or DEFENSE (DOD) OFF FrlICE OFTI-IE DEPUTY
               INSPECTOR
               INSPECTOR GENERAL ( lG)
                                   10) FOR AUDITING, ACQUISIT ION AND
               CONTRACr MANGBMENT
               CONTRACT

      SUB J ECT: OoO
                 DoD lIG Audit Drafl
                               Draft Report Tit led, "Gove
                                                       "Govcl'I\lllcnt           ofField
                                                                rnmcnt Ovcrsight ofFie    Service
                                                                                       ld Se rvice
                 Representative annd In stmctor
                                        stnlctor Serv
                                                  Services
                                                       ices in Support of Ihe
                                                                          the Mine Resi  stant Ambush
                                                                                   Rcsiswnt
                 Protected Vehicle Progralll
                                     rogram,"                0 . D2009-DOOCK-O
                                              ," (project 11no.                  IOO.OOO)
                                                                 D2009-DOOCK-OIOO.OOO)


                  While thi
                        thiss report is o nl y draft
                                               draft,. th
                                                       thee Co
                                                            Commander,      Marine CO
                                                               mmander, Marino             I'PS
                                                                                        Corp  s Systems Co
                                                                                                         Command,
                                                                                                             mmand , ha hass
         lrea d y begun mitigation efforts based on
      allirea                                           Oil the reconunenda
                                                                  ecollllllcndatiti olls. Specifica lly, government
      oversight
      oversiglll of Fi Ficld
                         cld Se
                              Serr vicc
                                     ce R cprcscntlllivcs
                                          epresentati vc.s (FS Rs) is being strcngt
                                                                                  strengthhened th  roug
                                                                                                  thro ughh a contl'aclua
                                                                                                              eontl1\c tua ll y
       formalized
       forma   li zed Quality  Assurnnce Surveillance Plan
                      Qualily Assurance                       Pl an..

               11 is impo rth,mtto
                              mtlo recognize
                                     recognizc Ilwtthat previous to Ih    thiis rep0l1
                                                                                rcp0l11lit great
                                                                                           greal deu l of effort was made by
      th
      thee Joint Progrnm
                  Program Office to ensu  e nsurre FSRs WCfewcrc p roperly monitorcd
                                                                                monitored.. Govcrn
                                                                                               Governmen      representuti ves
                                                                                                        men t l'cpresentntives
      were located at th
      wcre              theater,    eOllllur
                           eater, cou     ltry a nd si
                                                    s itte ac
                                                           acttiviti
                                                               ivities
                                                                     es to oversee
                                                                           oversec FSRs . The leve   evell of overs igh t is
      evide nced by aa hislorical         Click to add JPEG file
                        hisloricall'C<ldine
                                       readinessss level of marcmore than 90% 90%.. Additionally,
                                                                                      AdditiollHlly, c us
                                                                                                        usttome rs themselves
      served to provide a dd    itioo nal overs
                              ddili        ovcrs i ght.
                                                   ght .

              Although not as  liS formalized as th c e procedures suggested inlhe
                                                                             in the dran   repo
                                                                                      dmft re   po rt, th
                                                                                                       thce co
                                                                                                            conntrol
                                                                                                                trolss in
      pilice
      phlCC protected th thee wU
                              wa l'fi
                                 rfi ghtcr :md
                                           and provided good s tcward ship o f th
                                                                               thee la
                                                                                    taxpctyc
                                                                                       xpnye l"r'ss dollar.
                                                                                                    dolinI'. Thank
      yOll for yo
               youu r cfforts
                      efforts in strengthen iningg the Ocpal'llllent's
                                                       Dcpm1lllcn"s numb er onc
                                                                            one priority progrmn.
                                                                                           prognllll.

               My p oint
                    oi nt of con         fo r Ihi
                                 traa ct for
                             contr                  nctt ion is • • • • • • • • • • • • • • •
                                              thiss ne



                                                               Senllll J. Stllcklcy
                                                               Sca        Slllckley


      Attachmcnt:
      AlIachmclU:
      As sltuc
         state d
U.S. Marine Corps Systems Command Comments
 





                                  OEPARTMENT OFTHE NAVY
                            II EAOQUARTERS
                            IIEAOOUARTER S UNITED STATES MARINE
                                                         MNlINE CORPS
                                        MARINE
                                   3000 MAniN          PENTAGON
                                              E CO RPS PE NTAGON
                                     WASliiNOTON. DC 20350-0000
                                     WASIiINGTON.     20350-3000                IN IlEf't.Y
                                                                                III         num ,0;
                                                                                    AEJ>l.Y neTSI ,0,

                                                                                7510
                                                                                RFR-SO
                                                                                RFR-80
                                                                                5 Mar 10

       FIRST ENDORSEMENT on Commanding General, MCSC ltr of 4 Mar 10

       From:    Commandant of the Marine Corps (P&R , RFR)
       To:      Department of Defense Office (DOD) of the Deputy
                Inspector General (IG) for Auditing,   ACquisition and
                                           Auditing , Acquisition
                Contract Management
       via:
       Via:     Assistant Secretary of the Navy, Research,
                                                 Research. Development
                and Acquisition
                    Acquiaition

       Subj:    DOOIG AUD I T DRAFT REPORT TITLED , ~GOVERNMENT
                DODIG                               "GOVERNMENT OVERSIGHT OF
                FIELD SERVICE REPRESENTATIVE AND INSTRUCTOR SERVICES IN
                SUPPORT OF THE MINE RESISTANT AMBUSH PROTECTED VEHICLE
                PROGRAM,"
                PROGRAM ," (PROJECT NO
                                     NO.. D2009-DOOCK-0100.000)

       Ref:     (a) DOOIG memoranduum
                    DODIG memorand  m of 16 February 2010

       Encl :
       Enel     (1) Marine Corps official comments
                           Click to add JPEG file
       1. In accordance with reference (a), the Marine
                                                     arine corps has
       reviewed the
                t h e subject draft report and provides comments at the
       enclosure. These comments were also provided to the Mine
       Resistant Ambush Protected (MRAP) vehicle, Joint program Office
       by the commanding General, Mari
                                     arine
                                        ne Corps Systems command
                                                          Command ( MCSC).

       "~IPloi
       '~I
       •
                ••lilr.~~~~~~;.~
             lirr""~IIil: regarding this response, you may contact - -
                                                                   ---
                      .~~~~~~;'~uU~.~sS~.~M~a~r~ine corps Audit Liaison
                                                                     Corps Audit Liaison
       Officer, at
       officer,                                                    or email
       HQMCAuditLiaisons
       HQMCA             e uBmc.mi l .
            u ditLiaisonaeuamc.mil.




                                                   By direction
-- --_._---_.-------                     _ __.--_._--_ .._ -
                                 ......_.. •..                        ·, .. .......­..
                                                                            ........... --
                                                                                        -- ~-
                                                                                           ~ -..... ---_.-..
                                                                                                 ,-.----
                                                                                                                 i
                            UNITE
                               TEDD STATES MAR
                                           MARINE
                                               INE CO
                                                   COR
                                       CORPS SY81EMS
                               MARINI! CORP3
                                                      RPS
                                                       COf.l/.WIO
                                             SY3TEIoIS COf.tJ.lNID
                                        2200 lESTfl\
                                             lHreR ST
                                           VII\GI~ 22134-GO/iO
                                 atJAtmCO. VIROIM.
                                 00AtmC0.          22134-G()50
                                                                         ..
                                                                         IIIIUl.VllffVlTO:t
                                                                            RUl.... AUDlTO:t
                                                                                                                I
                                                                                                               '!'j
                                                                           H~R    0.4 1110

   From:      Commander
   To:        Inspector General , Department of Defense

   Subj :
   Subj:      GOVERNMENT ' OVERSIGHT OF FIELD SERVICE REPRESENTATIVE AND
              INSTRUCTOR SERVICES IN SUPPORT OF THE MINE RESISTANT
              AMBUSH PROTECTED VEHICLE PROGRAM (PROJECT NO. 02009­
              DOOOCK-0100 . 000)
              DoooeK-0100   OOO)

   1. Purpose. This letter provides Marine Corps Systems
   Command's (MCSC) response to the Department of Defense, Office
   of Inspector General (DoDIG) Draft Report on Government
   Oversight of Field Service Representative (FSR) and Instructor
   Services in Support of the Mine Resistant Ambush Protected
   Vehicle Program
           Progr am (MRAP) (Project No. D2009
                                        D2009-- DOOCK-OIOO.000)

   2.   DoOIG
        DoDIG Findings
                        Click to add JPEG file
            a. MCSC internal Controls were ineffective

        b. MCSC contracting officials did not provide adequate
   Government oversight of FSRs and New Equipment 'l'raining
                                                   Training
   Instructors as required.
                  required by Government regulations.
                                          regUlations . As a · result,
   Joint Program Office (JPO) MRAP officials ordered $815.4 Million
   in rSR and New Equipment Training Instructor services from April
   2007 to October 2009 without a written quality assurance process
   to ensure the services provided were performed in accordance
   with contract requirements . Instead, the JPO MRAP officials
   relied on the contractors to monitor themselves.
                                        t hemselves.

   3. MRAP Ovorall Summary.
                       summary. The report suggests the funds spent on
   FSRs were not spent wisely and that tho  the JPO
                                                 PO did not manage the
   FSRs at all. We understand your comments and the references in
   the Federal Acquisition Regulation (FAR)i
                                           (FAR); however
                                                  however,, we believe we
   9id
   ~id manage them sufficient
                     sufficientll y . The indication of success was
   reflected in a Mission Capability Rating (MCR) of 94% or higher
   which exceeded
           excoeded the required readiness rate goal.
                                                    goal . Our readiness
   rate
   r a te demonstrates that
                         tha t we managed, controlled, and had overall
   checks
   checkB and balan~es
                balanc,e s to manage the FSRs.

   Specific Comments:

         a . The Logistics team has oversight of the process via an
   i ntegrated and engaged chain of command throughout the JPO MRAP
   integrated




                                                                                        Enclosure (11 )
                                                                                        Enclosure(




                                                                 17
Subj:                                          REPRESENTATIVE AND
         GOVERNMENT OVERSIGHT OF FIELD SERVICE REPRESENTATIve
         INSTRUCTOR SERVICES IN SUPPORT OF THE MINE RESISTANT
         AMBUSH PROTECTED VEHICLE PROGRAM (PROJECT NO
                                                   NO.. 02009­
         DOOOCK-0100 .o 60)
                     . o60)

enterpriso. We
enterprise.    We have theater leads,
                               leads , country leads, site leads leads,,
proponents, Integrated Process Teams (IPTs), data collectors,
                                                         col l ectors,
Defense Contracting
         Cont ractinq Management Agency (DCMA)
                                          eOCMA) representatives
                                                  represe ntatives ,
Quality
Qual ity Assurance/Quality Contro l (QA/OC)
                                     (OA/QC) teams,
                                              teams , and others
                                                             ot hers who
oversee and actively manage the FSRs, our our logistics
                                              l ogist i cs team, and
the logistics
     logistic~ process.   This active management
                                       ma nagement provides robust
oversight of the program . We understand the Contracting
over3ight                                        contracting
Officer's
Officer' s Representative (COR) requirement; however, we believe
the JPO fulfilled the intent of this requirement with   wit h numerous
people and teams,
            teams , including our customers, by providing
           ot our activities and reporting on those activities
oversight of
daily .

       b. More specifically, the DoDIG team was show n that the JPO
MRAP has a forward       depl oyed cell
              forwa rd deployed    Ce l l stationed
                                           s t ationed in Iraq which i8   is
responsible for th   thee daily management of all MRAP FSRs stotioneds t at i oned
                      Click to add JPEG file
in theater. Each group of FSRs and       a nd Instructors
                                                I nstructors are under the
management of a Rogional Support Activity (RSA) Commander and
service representative even though we did not designate a COR in
the contract. The OoDIG  DoDIG was shown and received an explanation
of the two key metrics used to ~dentify                         performance::
                                        identify positive performance
customer complai n t s a nd Vehicle Mis  Mission
                                               sion Readiness (V (VMR)
                                                                   MR)
perce ntages, an objective measure of performance
percentages,                                      performance.. The customer
complaints are immediately addressed and resolved. VMR             VHR data is
reported to the JPO  JpO and 000
                               DoD leadership on a weekl  weeklyy basia
                                                                  basis.. The
fac t that
       tha t VMR data                           readines8 rates clea
                  da ta meets or exceeds readiness                 clearly
                                                                         rly
indicates the FSRs are performing their dutios in accordanpe
with · JPO MRA
            MRAPP contract requirements. The ratings   r ati ngs consistentl
                                                                 consistentlyy
show the    FSRe are engaged snd
       t he FSRs                 and excelling at the work they are on
contract to pe perform
                  rform and are providing vehicles with a MeR          CR of
94\,
941 , higher than the tho requirement.

With CDRL
     CORL A073, each Origi
                      Original  ~quipment Manufaoturer
                           nal Equipment                 (OEM)
                                          Manufacturer (OE  M)
provides detailed information, on a weekly
                                      woekl y basis to includo
identifying FSR
            rSR support which includes location of support, ttype
                                                               ype
                     mis3ion b eing supported. This information
of support, and the mission
provides the JPO with
                 wi th immediate insight as to where FSRs are
performing, what they
                 thoy are doing, the mission they are
supporting, and how weli            performing.
                     well they are pe rforming.

     c.
     c . For the Marine Corps, the JPO conducts weekly Secret ­
level Video Teleconferences (SVTes) with II Marine Expeditionary


                                        2




                                                   18
Subj :   GOVERNMENT OVERSIGHT
                    OVERSIGH'r OF FIELD
                                    HELD SERVICE REPRESENTATIVE AND
         INSTRUCTOR SERVICES IN SUPPORT orOF THE
                                              HE MINE RESISTANT
         AMBUSH PROTECTED VEHI
                            VEHICLE
                                CLE PROGRAM (PROJE
                                            (PROJECT
                                                  CT NO.
                                                     NO . 02009­
         DOOOCK-0100.OOO)
         DOOOCK-0100 . OOO)

Force Forward (MEF (Fwd» to discuss MRAP   MRAP operations.
                                                 operations . The
Commanding GeGenn eral , Marine Corps Logistics
                                       LogistiCS Command receives a
daily briefing o n readiness which includes detailed MRAP
operational
operat iona l status
              status.. For the Army, our JPO Forward elements
collocate and are attac    hed to the
                      attached     t he Army Field Support Brigades
(AFSS). These AFSBs h ave embedded Brigade Logistics Support
(ArSB).
Teams (BLSTs) down to unit level wher  where
                                           e many of our FSRs
                                                          FSRa operate.
Information from t h ese commands is consolidated
                                         consol idated and briefed
weekly for each Life Cycle Management Commandcommand commodity area in
the field to the Commanding General, Army Materiel Command to
address the material readiness, support and performance of
deployed equipment. The JPQ           integrated into this proce~s
                              JPO is inteqrated              proce,s s .

These activities demonstrate active management of the FSRs an and
                                                                d
their mission. We recommend that the DoDIG include thet he achieved
objective measure of effectiveness in their
                                       t heir report and describe
the activities
that ass1gning
                     Click to add JPEG file
    activitios associated with managing the FSRs.
                                              FSRs . To suggest
     aS9igning CORs and completing Quality Assurance
Surveillance plans (QnSP)
                    (QASP) would constitute greater management or
would have pro duced a more positive result for the over $BOOM
           produced                                        $OOOM in
funds spent on FSRs
                FSRs is misleading. The MRAP JPO actively '
managed and monitorod FSR performance successfully.
                                       successfully .

4.
4 . DoDIG
    DoOIG Recommendation

      a. Recommend that the Assistant Commander of Contracts (AC
CT), Marine Corps Systems Command require contracting officials
develop and implement a systematic
                         3Y3tematic , Government-controlled
quality assurance program for services
                               service3 procured from the five
MRA P contracts to ensure adequate Go
MRAP                               Government
                                      vernment oversight of FSRs
and New Equipmont
         Equipment Training Instructors.

     b. Recommend that the Proqram
                            Program Manager, JPO MRAP, MeSe,
                                                       MCSC,
develop and provide a Quality Assurance Surveillance Plan (QASP)
to the contract
       contracting
                ing officer, specifically for ongoing and planned
contract actions for services supporting MRAP vehicles to ensure
the quality and cost-effectiveness of services .

5.   MRAP Response
      a. The Assistant Commander of Contracts concurs with the
OoOrG
DoDIG reconunendation
       recommendation (a) listed in section 4 above . 'l'he
                                                      'I'he MRJ\P
                                                            MRAP


                                    3




                                             19
--_._._--.. _   - - ­- - - ­- - - - - - - ­- ­- - - - - - ;


            Subj:   GOVERNMENT OVERSIGHT OF FIELD SERVICE REPRESENTATIVE AND
                    INSTRUCTOR SERVICES IN SUPPORT OF THE MINE RESISTANT
                    AMBUSH PROTECTED VEHICLE PROGRAM (PROJECT NO . 02009­
                    DOOOCK-0100.OOO)
                    0000CK-0100.000)

           JPO Lead CoContracting
                        ntracting Officer is working with the MRAP Joint
            Program Office Program Manager (JPO PM) to develop a systematic
           Government-controlled quality assurance program for each of the
            five MRAP Indefinite Delivery/Indefinite Quantity (1010)
           contracts to strengthen government surveillance of FSRs and
           I n struotor
               structor support procured, as a requirement,
                                                 requirement I under the 101Q
                                                                         IOIQ
           contracts.. The MRAP JPO is coordinating a QASP for the MRAP JPO
           contracts
           Program Manager ' s Signature
                               signature and, once signed, the JPO
           contracting office will provide the QASP to the Contracting
                                                                contracting
           Officer Representative Team. The MRAP JPO contracting office         I
           identified the requirement for 38 CORsCORa to provide on site
           Government surveillance of MRAP FSRs and Instructors. CORS at
           six of seven OCONUS locations have been identified and appointed
           and CORS at seven of the 31 CONUS locations have been identified     I
           and appointed. All CaRS
                                 CORS will receive an appointment letter plus
           level I and level II COR training. In addition, to the COR
           element of the surveillance program, the procuring contracting
                              Click to add JPEG file                            I
           officer is ultimately responsible to ensure effective quality
           assurance and contract oversight for services procured.
                                                              procured .        I
           Therefore, the MRAP JPO contracting office is drafting a
           'l'herefore,
           contract administration plan which will detail how the Procuring
           Contracting Officer (PCO) will independently review contractor
           performance and how the COR team will work together . Once the
           surveillance infrastructure is  i8 in place, 86
                                                        as part of the
           independent asscssment,
           independcnt   assessment, the MRAP JPO contracting office will
           receive monthly COR reports from each of the 38 CORs to address
           surveillance results and annually the PCO will conduct on-site
           review of the CaRs'
                           CORs' surveil l an~e files.

           A second aspect of the Burveillance
                                   surveillance efforts by the MRAP JPO,
                                                                    JPO ,
           although the DoOIG
                        DoDIG did not address this in the draft report , is
           to ensure all five 1010
                              IOIQ contractors ' performance is assessed and
           entered into the Past Performance Information Retrieval System.

           The MCSC milestones for program implementation are as follows:
                08 March 2010:           PM and PCO approve QASP
                10 March 2010
                         2010::          Mod contracts to include clause
                                         and attach the QASP
                15-19 March 2010:        Continue with obtaining COR
                                         assignments
                15-19 March 2010:        Set up PPIRS and get APMs and PCOs
                                         in system


                                            ,
                                            4




                                                    20
Subj:     GOVERNMENT OVERSIGHT OF FIELD SERVICE
                                          SERVIce REPRESENTATIVE AND
          INSTRUCTOR SERVICES
                      SE RVICES IN SUPPORT OF THE MINE RESISTANT
          AMBUSH PROTECTED VEHICLE PROGRAM (PRO JECT NO. 02009­
          DOOOCK-0100.OOO)
          DOOOCK-0 100 . OOO)
        22 Mar-22
           Har-22 April 2010:    complete
                                 Complete COR Level II Training
        23 Apr-21 May 20
                       2010
                         1 0::            COR Level II Training
                                 Conduct 'COR
        Feb-Mar
             a r 2011:           Conduct Annual COR File Reviews
                                                          Review9

      bl. The Program
      b).               Manager, JPO MRAP, MCSC
                                           MCSe , concurs with the
DoDIG recommendation    (b) listed in section 4 above . A QASP is
bei ng finalized. We
being                   expect the JPO PH will sign the QASP and
                                       PM
provide it to the AC    CT by the end of March
                                         Horch 2010.




                     Click to add JPEG file




                                   5




                                            21
